ALABAMA COURT OF CRIMINAL APPEALS
CR-20-0161
Michael A. Livingston v. State of Alabama (Appeal from Mobile Circuit
Court: CC02-2148.61)

CERTIFICATE OF JUDGMENT
WHEREAS, the appeal in the above referenced cause has been duly
submitted and considered by the Court of Criminal Appeals; and
WHEREAS, the judgment indicated below was entered in this cause on
March 5th 2021:
Affirmed by Memorandum.
NOW, THEREFORE, pursuant to Rule 41 of the Alabama Rules of
Appellate Procedure, it is hereby certified that the aforesaid judgment is
final.
Witness.D. Scott Mitchell, Clerk
Court of Criminal Appeals, on this
the 14th day of May, 2021.

7).
Clerk
Court of Criminal Appeals
State of Alabama
cc

Hon. Michael A. Youngpeter, Circuit Judge
Hon. JoJo Schwarzauer, Circuit Clerk
Michael A. Livingston, Pro Se
Marc Alan Starrett, Asst. Atty. Gen.

IN THE SUPREME COURT OF ALABAMA

May 14, 2021
1200461
Ex parte Michael A. Livingston. PETITION FOR WRIT OF CERTIORARI
TO THE COURT OF CRIMINAL APPEALS (In re: Michael A. Livingston v.
State of Alabama) (Mobile Circuit Court: CC-02-2148.61; Criminal Appeals :
CR-20-0161).
CERTIFICATE OF JUDGMENT
WHEREAS, the petition for writ of certiorari in the above referenced
cause has been duly submitted and considered by the Supreme Court of
Alabama and the judgment indicated below was entered in this cause on May
14, 2021:
Writ Denied. No Opinion. Bryan, J. - Parker, C.J., and Shaw, Mendheim,
and Mitchell, JJ., concur.
NOW, THEREFORE, pursuant to Rule 41, Ala. R. App. P., IT IS
HEREBY ORDERED that this Court's judgment in this cause is certified on
this date. IT IS FURTHER ORDERED that, unless otherwise ordered by this
Court or agreed upon by the parties, the costs of this cause are hereby taxed
as provided by Rule 35, Ala. R. App. P.
I, Julia J. Weller, as Clerk of the Supreme Court of Alabama, do hereby certify that the
foregoing is a full, true, and correct copy of the instrument(s) herewith set out as same appear(s)
of record in said Court.
Witness my hand this 14th day of May, 2021.

os*si\ydiiiA--*
A

T?T)CT:.yii-.i\ 1 28

I

GRAND JURY NO. 240
CIRCUIT COURT OF MOBILE COUNTY

!

i

THi’ STATE OF ALABAMA,
MOBILE COUNTY,

2148

July Session, 2002 .

ttet'beforc -rmdio8 °f ,his i"dfcm“i
,vhose name is to Che Grand Jury otherwise unknown than as stated,

ama,
of the
gainst the peace and dignity of the State of Alabama.
?

No Prosecutor

JOHN M. TYSON, JR.
District Attorney for the I3th Judicial
Circuit of Alabama
(County of Mobile)

A True Bill

;

i

i
i

■

; i
\ Bai] fixed in' °*>en court

Jt 30d o

iT«o
this the /?*7jay of Jul

Foreperson of the Grand Jury

y$-J73^^r-

l
iA

2002

Judge
Presented to the Court by the Foreperson of the Grand Jury in die presence of &
other Grand Jurors

#-

Lied in open court this the

day of July, 2002
l-fJyAc®Qerk Circuit court, Mobile, County, Alabail^

• V1-, /f%

'

ym
a

^PfedA

ter

£
,

■

~

-r-'i?/'/,

RELEASED
REL: March 5, 2021

MAR - 5 2021
CLERK
ALA COURT CRIMINAL APPEALS

Notice: This unpublished memorandum should not be cited as precedent. See Rule 54, Ala. R. App. P. Rule 54(d)
states, in part, that this memorandum "shall have no precedential value and shall not be cited in arguments or
briefs and shall not be used by any court within this state, except for the purpose of establishing the application
of the doctrine of law of the case, res judicata, collateral estoppel, double jeopardy, or procedural bar."

ALABAMA COURT OF CRIMINAL APPEALS
CR-20-0161
Michael A. Livingston v. State of Alabama
Appeal from Mobile Circuit Court CC-02-2148.61
MEMORANDUM DECISION
KELLUM, Judge.
Michael A. Livingston appeals the circuit court's summary dismissal
of his petition for postconviction relief filed pursuant to Rule 32, Ala. R.
Crim. P., in which he attacked his 2003 conviction for attempted murder
and his resulting sentence of life imprisonment. This Court affirmed
Livingston's conviction and sentence on direct appeal in an unpublished
memorandum issued on February 20, 2004. Livingston v. State (No. CR02-1502), 910 So. 2d 832 (Ala. Crim. App. 2004) (table). This Court issued
a certificate of judgment on March 10, 2004.

.ft

- -

1

.

On July 9, 2020, Livingston filed this, his second, Rule 32 petition.1
As best we can discern, Livingston alleged in his petition: (1) that the trial
court lacked jurisdiction to render the judgment or to impose the sentence
and that his life sentence was illegal; and (2) that his right to be free from
double jeopardy was violated. On October 30, 2020, the State filed a
response and motion to dismiss Livingston's petition, arguing that
Livingston's claims were precluded by Rules 32.2(a)(3), (a)(5), (b), and (c),
Ala. R. Crim. P., were insufficiently pleaded, and/or were meritless. On
November 2, 2020, the circuit court summarily dismissed Livingston's
petition, finding that claim (1) was meritless and precluded by Rules
32.2(a)(3), (a)(5), and (c), and that claim (2) was "nonsensical." (C. 51.) On
November 19, 2020, Livingston filed a reply to the State's response and a
postjudgment motion to set aside the circuit court's judgment. The circuit
court denied the motion the same day.
On appeal, Livingston reasserts claim (1), as set above, and argues
that the circuit court erred in denying him relief on this claim. In his
petition, Livingston alleged that the trial court lacked jurisdiction to
render the judgment or to impose the sentence and that his life sentence
was illegal because, he said, he was convicted of an offense that does not
exist. Specifically, he argued that attempted murder is not an offense
under the Alabama Criminal Code, and that the prosecutor could not
combine two statutes - the murder statute, § 13A-6-2, Ala. Code 1975,
and the attempt statute, § 13A-4-2, Ala. Code 1975 - to create an offense
that does not otherwise exist. According to Livingston, the legislature
intended the murder statute to apply only if the victim died and did not
intend to create the offense of attempted murde^instead creating the
assault offenses to cover those instances in which the victim did not die.
Because his victim did not die, Livingston argued, he could be convicted,
at most, of the offense of first-degree assault, which is a Class B felony
punishable by no more than 20 years' imprisonment, thereby rendering
his life sentence illegal. A claim that the petitioner was convicted of an
offense that does not exist is jurisdictional. See, e.g., Crane v. State. 964

Livingston did not appeal the summary dismissal of his first
petition.
2

-• —

A

So. 2d 1254 (Ala. Crim. App. 2007); Pilgrim v. State. 963 So. 2d 697 (Ala.
Crim. App. 2006); Connor v. State. 955 So. 2d 473 (Ala. Crim. App. 2006);
Watkins v. State. 941 So. 2d 343 (Ala. Crim. App. 2006); and Casev v.
State. 925 So. 2d 1005 (Ala. Crim. App. 2005). However, this claim is
meritless.
Contrary to Livingston's belief, attempted murder is an offense
under the Alabama Criminal Code and the legislature plainly intended to
create that offense by virtue of § 13A-4-2, Ala. Code 1975, which provides,
in relevant part:
"(a) A person is guilty of an attempt to commit a crime if,
with the intent to commit a specific offense, he does any overt
act towards the commission of such offense.

"(d) An attempt is a:
"(1) Class A felony if the offense attempted is
murder."
(Emphasis added.) The Commentary to this statute states, in relevant
part:
"It is universally recognized, supported by a wealth of case law
and statutory material, that one is criminally liable for
attempting the commission of a crime even though his
endeavor falls short of the ultimate intended objective. Section
13A-4-2 establishes a general provision which applies to all
crimes. It affords standards as to the required intent and
conduct and covers such problems as impossibility of
. accomplishment, abandonment of criminal intent, and a
Jy classification of punishments.

r—

TSTtiTt.

3

"An 'attempt' to commit a crime consists of three
elements: (1) an intent to commit a crime; (2) performance of
some overt act toward commission of the offense; and (3) the
failure to consummate its commission."
(Emphasis added.) See also Vason v. State. [Ms. CR-18-0797, August 14,
So. 3d
2020]
(Ala. Crim. App. 2020), and Murnhv v. State. 108
So. 3d 531, 540-41 (Ala. Crim. App. 2012) (both setting out the elements
of the offense of attempted murder). Moreover, because attempted
murder is a Class A felony, Livingston's life sentence was within the
authorized range of punishment. See § 13A-5-6(a)(l), Ala. Code 1975.
Livingston does not reassert in his brief on appeal claim (2), as set
out above. Therefore, that claim is deemed abandoned and will not be
considered by this Court. See, e.g., Ferguson v. State. 13 So. 3d 418, 436
(Ala. Crim. App. 2008) ("[C]laims presented in a Rule 32 petition but not
argued in brief are deemed abandoned."); and Brownlee v. State. 666 So.
2d 91, 93 (Ala. Crim. App. 1995) ("We will not review issues not listed and
argued in brief.").
Rule 32.7(d), Ala. R. Crim. P., authorizes the circuit court to
summarily dismiss a petitioner's Rule 32 petition
"[i]f the court determines that the petition is not sufficiently
specific, or is precluded, or fails to state a claim, or that no
material issue of fact or law exists which would entitle the
petitioner to relief under this rule and that no purpose would
be served by any further proceedings ...."
See also Hannon v. State. 861 So. 2d 426, 427 (Ala. Crim. App. 2003);
Cogman v. State. 852 So. 2d 191, 193 (Ala. Crim. App. 2002); Tatum v.
State. 607 So. 2d 383, 384 (Ala. Crim. App. 1992). "Summary disposition
is also appropriate when the petition is obviously without merit or where
the record directly refutes a Rule 32 petitioner's claim." Lanier v. State.
296 So. 3d 341, 343 (Ala. Crim. App. 2019). Because the only claim
Livingston pursues on appeal is meritless, summary disposition of
4

T*!—'-.

—w*^.

“TT

J

Livingston's Rule 32 petition was appropriate.
Based on the foregoing, the judgment of the circuit court is affirmed.
AFFIRMED.
Windom, P.J., andMcCool, Cole, and Minor, JJ., concur.

5

Additional material
from this filing is
available in the
Clerk's Office.

